OIG Investigative Reports, Madison, WI June 05, 2013 -  Three Charged With Mail Fraud & Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
WESTERN DISTRICT of WISCONSIN
NEWS
Grand Jury Returns Indictments
FOR IMMEDIATE RELEASE
June 05, 2013
MADISON, WIS. -- A federal grand jury in the Western District of Wisconsin, sitting in Madison, returned the following indictments today.  You are advised that a charge is merely an accusation and that a defendant is presumed innocent until and unless proven guilty.
THREE CHARGED WITH FILING FALSE LIENS
William Poff, 41, Englewood, Colo., Brian Small, 52, Rockford, Ill., and Christopher Osborne, 40, Oakridge, N.J., are charged with conspiring to file false liens and encumbrances against the property of various current and former members of the President's cabinet, federal judges, federal law enforcement officers, and employees of the United States.  The defendants are also charged with seven counts of mail fraud, in a scheme to defraud banks, credit institutions and the United States government.  Brian Small is charged also with an additional 12 counts of mail fraud.
The indictment alleges that on six occasions in August and September 2011, Poff attempted to file false liens against the real and personal property of:
The United States Attorney General;
A former United States Attorney General;
Federal district court judges in the Northern District of Indiana, Western District of Wisconsin, Northern District of Illinois, and Southern District of California;
Former United States Attorneys for the Northern District of Illinois and Southern District of California, and a former Acting United States Attorney for the Western District of Wisconsin;
Assistant U.S. Attorneys in the Western District of Wisconsin, Northern District of Illinois, and Western District of Michigan; and
Agents with the Internal Revenue Service.
The indictment charges Small and Osborne each with one count of filing false liens.
The indictment also alleges that Poff devised a theory to defraud, called the Marine Process, which was designed to purportedly remove an individual from the jurisdiction of the United States and into admiralty jurisdiction.  According to the indictment, Poff created a trust for a group of nine individuals, including Small and Osborne, and the members filed UCC liens against federal judges, federal prosecutors, and federal agents.  The members of the trust claimed to be wrongfully imprisoned and entitled to be immediately released, or they would be owed $1.8 billion a day for their wrongful imprisonment.
The indictment also alleges that Small filed additional false pleadings in federal court to further the Marine Process scheme via the U.S. Mail.
If convicted, Poff, Small and Osborne face a maximum penalty of 10 years in federal prison on the conspiracy count, 10 years on each count of filing a false lien, and 20 years on each mail fraud count.  The charges against them are the result of an investigation by the Federal Bureau of Investigation and the Federal Bureau of Prisons.  The prosecution of this case has been assigned to Assistant U.S. Attorney Munish Sharda.
ELROY MAN CHARGED WITH FRAUD & IDENTITY THEFT
Timothy D. Mueller, 45, Elroy, Wis., is charged with eight counts of wire fraud and two counts of identity theft.  According to the indictment, he was the owner of businesses involved in sales of residential windows and doors, known as Advance Home Tech/Custom Creations and later, as Windesign.  The indictment alleges that Mueller directed his sales representatives to have all customers fill out applications for financing.  Mueller had a merchant relationship with GE Money Bank, which would provide qualified customers with a GE Money Bank credit card.  The indictment alleges that Mueller falsely entered sales on the customers' GE Money Bank credit cards, and that GE Money Bank would then wire transfer the money associated with such a sale to an account designated by Mueller.
The indictment also charges Mueller with two counts of identity theft, alleging that he used the identity of another person during the wire fraud offenses.
If convicted, Mueller faces a maximum penalty of 20 years in federal prison on each wire fraud count, and two years on each identity theft count, which would be served consecutively to any other sentence imposed.  The charges against him are the result of an investigation by the Federal Bureau of Investigation, Eau Claire Police Department, and Wisconsin Department of Agriculture, Trade & Consumer Protection.  The prosecution of this case has been assigned to Assistant U.S. Attorney Laura Przybylinski Finn.
THREE CHARGED WITH MAIL FRAUD & IDENTITY THEFT
Valencia Jenkins, 33, Ricco Jenkins, 27, and Sharonda Lynn Lathan, 30, all of Lithonia, Georgia, are charged with engaging in a scheme to obtain money from the United States through federal and state student financial aid programs by means of false representations.  The indictment alleges that the defendants fraudulently applied for federal and state student financial aid by falsifying their and others' eligibility for financial aid, and that they did not use the funds obtained for authorized educational purposes.  The indictment alleges that the defendants fraudulently used more than 20 persons' personal identifiers and defrauded the United States of more than $400,000.
The indictment charges Valencia Jenkins with eight counts of mail fraud and one count of using the identity of another person during the mail fraud offenses, Ricco Jenkins with two counts of mail fraud, and Sharonda Lynn Lathan with two counts of mail fraud.  Valencia Jenkins and Ricco Jenkins are cousins.
If convicted, the defendants face a maximum penalty of 20 years in federal prison on each mail fraud count.  Valencia Jenkins also faces a maximum penalty of two years in federal prison on the identity theft count, which would be served consecutively to any other sentence imposed.  The charges against them are the result of an investigation by the Office of Inspector General, U.S. Department of Education and the U.S. Postal Inspection Service.  The prosecution of this case has been assigned to Assistant U.S. Attorney Peter M. Jarosz.
JEFFERSON MAN CHARGED WITH POSSESSION OF CHILD PORNOGRAPHY
David Roehl, 32, Jefferson, Wis., is charged with possessing a hard drive containing visual depictions of a minor engaging in sexually explicit conduct.  The indictment alleges that he possessed the child pornography on March 8, 2011.
If convicted, Roehl faces a mandatory minimum penalty of 10 years in federal prison, and a maximum penalty of 20 years.  The charge against him is the result of an investigation by the Jefferson Police Department and Wisconsin Department of Justice, Division of Criminal Investigation.  The prosecution of this case has been assigned to Assistant U.S. Attorney Elizabeth Altman.
This case was brought as part of Project Safe Childhood, a nationwide initiative launched in May 2006 by the Department of Justice to combat the growing epidemic of child sexual exploitation and abuse.  Led by the United States Attorneys' Offices and the Criminal Division's Child Exploitation and Obscenity Section, Project Safe Childhood marshals federal, state, and local resources to locate, apprehend, and prosecute individuals who sexually exploit children, and to identify and rescue victims.  For more information about Project Safe Childhood, please visit www.usdoj.gov/psc.  For more information about internet safety education, please visit www.usdoj.gov/psc  and click on the tab "resources."
MADISON MAN CHARGED WITH GUN CRIME
Jerel Franklin, 19, Madison, Wis., is charged with being a felon in possession of firearms and ammunition.  The indictment alleges that on April 26, 2013, he possessed a .22 caliber rifle, a .45 caliber pistol, and ammunition.
If convicted, Franklin faces a maximum penalty of 10 years in federal prison.  The charge against him is the result of an investigation by the Madison Police Department and Bureau of Alcohol, Tobacco, Firearms and Explosives.  The prosecution of this case has been assigned to Assistant U.S. Attorney Rita M. Rumbelow.
GLEASON WOMAN CHARGED WITH THEFT OF MAIL
Lisa Virginia A. Barker, 48, Gleason, Wis., is charged with stealing an item from an envelope intended to be conveyed by the U.S. mail.  The indictment alleges that on February 26, 2011, she stole a gift card from a piece of mail which came into her possession by virtue of her employment at the Schofield Post Office, Schofield, Wis.
If convicted, Barker faces a maximum penalty of five years in federal prison.  The charge against her is the result of an investigation by the U.S. Postal Service, Office of Inspector General.  The prosecution of this case has been assigned to Assistant U.S. Attorney Robert A. Anderson.
Top
Printable view
Last Modified: 06/24/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov